SEMIANNUAL REPORT
TO THE CONGRESS

OCTOBER 1, 2001 - MARCH 31, 2002



          OFFICE OF INSPECTOR GENERAL
           RAILROAD RETIREMENT BOARD
                          Railroad Retirement Board-Office of Inspector General
                                   Semiannual Report to the Congress
                                     October 1, 2001 - March 31, 2002



                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2

SIGNIFICANT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     4

OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9
Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10
Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . .                                       15

OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   16
Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           17
Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18
Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 19
Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         25
Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     26

LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . . . .                                             27

APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              28
(B) OIG Reports Issued Involving Questioned Costs and
    Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . .                                         29
(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . .                                      31
(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        32
(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . . . . .                               38
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




                         EXECUTIVE SUMMARY

This Semiannual Report describes the activities of the Office of Inspector General
(OIG) at the Railroad Retirement Board (RRB) during the six month period ending
March 31, 2002.

The OIG issued its audit report of the RRB’s financial statements, related internal
controls and compliance with laws and regulations. The report cited material
weaknesses in the agency’s overall control environment and system of information
security, and a reportable condition related to debt recovery accounting. Auditors
also conducted an evaluation of the RRB’s information system security program
and practices that disclosed weaknesses in most areas of the agency’s
information security program. The OIG continued to closely monitor the RRB’s
investment activities and the impact of the recently enacted Railroad Retirement
and Survivors’ Improvement Act.

The Office of Audit also performed other reviews related to internal controls, the
agency contract for medical consulting services, and the quality assurance
program for initial benefit awards.

The Office of Investigations achieved 24 convictions, 17 indictments and
informations, and $573,473 in recoveries, restitutions, fines, civil damages, and
penalties.




                                         -1-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




                              INTRODUCTION

Office of Inspector General

The Office of Inspector General (OIG) has the responsibility for promoting
economy, efficiency and effectiveness in the programs of the Railroad Retirement
Board. The office is also charged with the detection, prevention and elimination of
fraud, waste and abuse in agency operations. To accomplish its mission, the OIG
conducts audits, management reviews, and investigations.

The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
General at the Railroad Retirement Board by naming the agency as “one of such
establishments” identified under Section 2 of the Inspector General Act of 1978.
The Inspector General Act Amendments of 1988 added the RRB to the list of
agencies covered by the Inspector General Act.

In fiscal year 2002, the OIG has 54 employees and an operational budget of
$6,261,000. The organization has three major components: the immediate office
of the Inspector General, the Office of Audit, and the Office of Investigations. The
office conducts operations from two locations: the headquarters of the Railroad
Retirement Board in Chicago, Illinois, and an investigative field office in
Philadelphia, Pennsylvania.




                                         -2-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




Railroad Retirement Board

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government that is headed by a three member Board
appointed by the President of the United States, with the advice and consent of
the Senate. One member is appointed upon the recommendation of railroad
employers, one is appointed upon the recommendation of railroad labor
organizations, and the third, who is the Chair, is appointed to represent the public
interest.

The agency administers comprehensive retirement-survivor and unemployment-
sickness insurance benefit programs for the nation's railroad workers and their
families, under the Railroad Retirement and Railroad Unemployment Insurance
Acts. The RRB also has administrative responsibilities under the Social Security
Act for certain benefit payments and Medicare coverage for railroad workers.

During fiscal year (FY) 2001, the RRB paid $8.4 billion in retirement and survivor
benefits to approximately 700,000 beneficiaries, while net unemployment and
sickness insurance benefits of $95 million were paid to almost 40,000 claimants.
The RRB also administers its own Medicare Part B program through a single
carrier, Palmetto GBA. The carrier made payments totaling $762 million to
provide medical insurance benefits for 590,000 beneficiaries.




                                         -3-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




SIGNIFICANT ISSUES

                    FINANCIAL STATEMENT AUDIT

On February 8, 2002, the Office of Inspector General (OIG) issued its audit report
of the RRB’s financial statements, related internal controls and compliance with
laws and regulations. Auditors reported material weaknesses in the agency’s
overall control environment and system of information security, and a reportable
condition related to debt recovery accounting.

Overall Control Environment


As in previous audits of the agency’s financial statements, the OIG cited the overall
control environment as a material weakness. The conditions that led to the
original finding continue to exist - the present administrative structure is the
primary cause. The internal control environment remains focused on control
objectives and techniques designed to meet organizational responsibilities of
each individual operating unit, not the overall objectives of the RRB.

Agency management believes reorganizations and changes in the role of the
RRB’s Executive Committee have eliminated this material weakness. As a result,
the agency did not include this finding in its Federal Managers’ Financial Integrity
Act reports for fiscal years 1997-2001. Although the RRB has implemented
changes to the agency’s organizational structure, the OIG stated that auditors have
not observed a related change in the agency’s organizational culture.




                                         -4-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




Information Security


During fiscal year 2001, the OIG conducted a review of the RRB’s information
security program to assess agency compliance with the provisions of the
Government Information Security Reform Act. The review identified significant
deficiencies in program management and access controls. These deficiencies
indicate that the agency’s information security program is a source of material
weakness in internal control over financial reporting. The OIG reported its
assessment to agency management in the form of an executive summary dated
September 5, 2001. Detailed findings were published in OIG Audit Report
Number 02-04, dated February 2, 2002. (A description of this report is provided
on page 7 of this report.)

Accounting for Benefit Overpayment Recoveries

In fiscal year 2000, the OIG identified weaknesses in internal control over debt
recovery transactions that adversely impact the ability of the agency to ensure the
reliability of financial reporting and the safeguarding of accounts receivable.
Errors were detected in debt recovery transactions that included returned benefit
payments that had not been credited to debtor accounts; benefit payments that
had been erroneously credited to debtor accounts as recoveries; and delayed
recording of certain debt recoveries. An examination of these errors indicated
weaknesses in the related internal controls. Although management has
implemented some OIG recommendations, they have not taken the recommended
actions in several key areas.




                                         -5-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




               INVESTMENT COMMITTEE ACTIVITIES

The Office of Inspector General has closely monitored the activities of the RRB’s
Investment Committee and identified serious control weaknesses that included
the lack of a consistent long-term investment strategy, poor cash management
practices, and a lack of documentation to justify investment decisions.

On December 21, 2001, the Railroad Retirement and Survivors’ Improvement Act
(RRSIA) was signed into law. The legislation contains significant changes in the
structure and financing of future benefits, as provided by the Railroad Retirement
Act (RRA). In addition to the benefit and tax provisions, the RRSIA establishes the
National Railroad Retirement Investment Trust (NRRIT) and an independent board
of seven trustees with the responsibility for the investments used to support RRA
benefit programs. Of the seven trustees, three will represent the interest of labor,
three will represent the interests of management, and one will be an independent
member.

On January 28, 2002, the OIG issued a management information report
recommending that the Board Members immediately rescind the investment
authority it had delegated to the agency’s Investment Committee. This
recommendation was made to ensure that the Investment Committee’s activities
do not complicate the transfer of investment authority to the Trust. The Board
Members disagreed with the recommendation, stating that the Board will continue
to have statutory authority to invest trust fund monies after the NRRIT is
operational. They also stated that, if investment opportunities arise, the
Investment Committee should be in a position to exercise the Board’s investment
authority.


                                         -6-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2001 - March 31, 2002




To date, the labor and management members of the Trust have been named;
these individuals will soon elect the trustee for the public interest. On
March 15, 2002, the Board transferred $2 million to the trust for the payment of
various start-up operational expenses of the trust. Negotiations among the RRB,
the Department of the Treasury, and the Trust continue to ensure the timely and
effective transfer of investment authority for approximately $18 billion in trust funds.

The OIG will continue to monitor the agency’s activities to ensure the requirements
of RRSIA are met.



               COMPLIANCE WITH THE
    GOVERNMENT INFORMATION SECURITY REFORM ACT

In accordance with the provisions of the Government Information Security Reform
Act, OIG auditors conducted an evaluation of the RRB’s information system
security program and practices. Review results disclosed weaknesses in most
areas of the agency’s information security program. Security responsibilities are
fragmented throughout the agency. As a result, auditors cited the program as a
source of material weakness in internal control over financial reporting. This
report contained 28 recommendations for corrective action.

The most significant weaknesses related to program management and access
controls. Other identified weaknesses included passwords that do not expire,
inactive and duplicate accounts, and information system privileges for separated
employees and contractors that had not been revoked.




                                          -7-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2001 - March 31, 2002




Auditors found that employees with decision-making responsibilities for
information system security had not been provided with adequate formal
training in theory, principles and practices of system security. As a result, some
employees do not have the necessary knowledge base to support the security-
related decisions required by their positions.

The OIG report also cited the agency for weaknesses in the security planning and
evaluation process, inadequacies in the design of controls intended to restrict
individual privileges to the minimum required by their employment, and a lack of
documentation for some security-related activities. The lack of a strong framework
with a central management focal point is the underlying cause for numerous
situations in which the controls that have been designed and placed into operation
are less than fully effective.

The agency’s Bureau of Information Services has taken, or is planning to take,
corrective action in response to most of the recommendations presented in the
report. However, bureau management has noted that limited resources and other
security priorities will make it difficult to establish target dates for implementation
that are the responsibility of a newly created risk management group.




                                          -8-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




                             OFFICE OF AUDIT

The Office of Audit (OA) conducts reviews to promote economy, efficiency, and
effectiveness in the administration of RRB programs, and to detect and prevent
waste, fraud, and abuse in such programs. Through the Inspector General, the
office ensures that the Board Members and Congress are informed of current and
potential problems in the RRB’s programs and operations, and advised of
recommended improvements, as well as the status of corrective actions. OA
examines programmatic, financial, and administrative aspects of RRB
operations.

During this reporting period, OA issued its audit of the RRB’s financial statements
for fiscal year 2001 and continued its review of the information security of the
agency’s systems. Auditors also conducted oversight for the development of the
agency’s document imaging system, legislative changes to the Railroad
Retirement Act, and the investment activities of the RRB.

In addition to the reports described under the Significant Issues section of this
report, the OIG performed other audits and reviews that are summarized in the
following pages.




                                         -9-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




Weaknesses in RRB Controls for Protecting Social Security Numbers


The OIG is currently participating in a review of controls over the access,
disclosure and use of social security numbers (SSNs) by Federal agencies that is
being conducted by the President’s Council on Integrity and Efficiency.

Initial testing performed by auditors indicated that the agency is not adequately
protecting SSNs and other sensitive information from unauthorized disclosure.
Due to the sensitive nature of data that was left unsecured and subject to
unauthorized disclosure, auditors issued this report to alert RRB management of
the need for immediate corrective action.

Documents containing SSNs and sensitive information were found in storage
containers, unlocked trash containers and trash bags located in the elevator
lobbies on seven different floors of the headquarters building as well as in work
areas. Discarded documents contained names, addresses, SSNs, dates of birth
and numerous medical records of individuals.

Auditors also found a number of plastic cards used to produce temporary building
admittance identification cards that had been discarded in a box in the
headquarters building. Such cards could be altered and taken by anyone in the
building, including employees, cleaning personnel or contractors, and used to
provide building access to unauthorized individuals.

This report recommended that management immediately take steps to protect
SSNs and other sensitive data by securing documents identified for disposal in
locked containers on each floor of the headquarters building.




                                        -10-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




The Senior Executive Officer (SEO) has issued an instructional memorandum to
all agency employees concerning the protection of SSNs and other sensitive data
against unauthorized disclosures. The SEO has also ensured that locked
shredding containers are located on each floor of headquarters, and that all
unused identification cards have been secured.



Inspection of the Railroad Retirement Board’s Quality Assurance Program
for Initial Benefit Awards


The agency’s Office of Programs established a quality control function to provide
management with timely information on the accuracy of initial benefit payments.
The quality assurance staff conducts reviews of initial employee, spouse and
widow(er) applications and manually processed post-adjudication actions. This
group conducts a stratified, random sampling of cases processed during the
fiscal year to determine accuracy rates as well as compliance with policies and
procedures. Semiannually, personnel representing various components within the
Office of Programs meet to discuss pertinent errors, present solutions to
problems, and to reach agreement on corrective actions.

The Office of Programs’ 1997 Plan for Quality included information on the planned
use of Statistical Process Control (SPC), a technique used to identify variances in
the processing of a product or service and to provide statistically sound
projections of quality and timeliness. Management identified SPC as the
technique best suited to control and improve the quality of services within the
Office of Programs.




                                        -11-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




A pilot project using SPC for sickness applications was conducted for two years,
but then discontinued because management determined this method
was too labor intensive. However, some employees misinterpreted this action as
the end to all SPC reviews. Management responded by stating that, although all
aspects of SPC may not be implemented, this technique would continue to be
used when and where needed.

OIG auditors recommended that the Office of Programs clarify its intentions for
using SPC services. Management concurred and will address the principles to
be used in measuring and improving quality in the customer quality assurance
plan targeted for completion by September 30, 2002.



Review of the Railroad Retirement Board’s Internal Controls Related to
Changes in the Full Retirement Age


In 1983, legislation amending the Social Security Act was enacted that mandated
a gradual increase in the full retirement age from 65 to 67. This change also
impacts railroad retirees because the Railroad Retirement Act (RRA) uses the
same full retirement age as the Social Security Act. In addition, any individual
who reached early retirement age in calendar year 2000 or later is affected by this
amendment. Because benefits are reduced for each month that an individual is
under full retirement age, the maximum annuity reduction is now gradually
increasing from 20% to 30%.

Auditors conducted a review to ensure that the changes in the full retirement age
have been incorporated into agency policies, procedures and payment systems,
and that the agency is computing benefits in compliance with those changes. The
review indicated that the overall system of management

                                        -12-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




 controls provides reasonable assurance that annuities awarded in calendar year
2000 accurately reflected the change in the full retirement age. The agency’s
current quality assurance functions also provide an effective means to detect
errors in the calculation of benefits related to the age changes.

Auditors did identify that the agency had not updated its regulations related to
delayed retirement credits and employee disability benefits to reflect changes in
the full retirement age. However, the current regulations do not impact benefit
payments currently being paid in these categories because the impacted
individuals will not reach age 65 or full retirement age until 2003 or later. The
regulations do provide inaccurate information about the administration of RRA
programs. Auditors recommended that the agency draft amendments to update
the regulations in this area. As a result, the amendments were drafted, recently
approved by agency management, and will be forwarded for publication and
comment in the Federal Register.



Review of the RRB’s Contract With Consultative Examinations, Ltd. For
Medical Consulting Services

The Railroad Retirement Act mandates that the RRB administer a disability
program for railroad workers and their dependents. The agency is responsible for
evaluating evidence submitted in support of disability applications, obtaining
additional evidence when necessary, and awarding/denying disability benefits.
The agency utilizes the services of medical consultants to provide advisory
medical opinions, offer medical expertise, and consult on disability benefit and
claim matters.




                                        -13-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




This audit revealed that improvements are necessary to improve the RRB’s
monitoring of its contract with Consultative Examinations, Ltd. (CEL), the current
contractor for medical consulting services. During an unannounced
visit to CEL facilities, auditors determined that the contractor is not adhering to
the provisions of its contract with the RRB. CEL is (1) not providing adequate
security for RRB claim folders that contain confidential information on RRB
annuitants and are subject to the Privacy Act; (2) not performing a sufficient quality
assurance review or submitting quarterly quality assurance review reports to the
RRB; and (3) not providing current medical licenses for all doctors preparing
medical opinions under the contract.

The OIG issued recommendations to ensure the RRB addresses the identified
weaknesses by establishing procedures to ensure CEL is in compliance with all
terms of the contract. Auditors also recommended that the agency perform
periodic, unannounced reviews of the CEL facility. Management concurred with
the report findings and scheduled all corrective actions for completion by
June 30, 2002.




                                         -14-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




       AUDITS: MANAGEMENT DECISIONS AND IMPLEMENTATION

The Office of Inspector General maintains the open audit follow-up system to track
the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector General
Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.



Management Decisions

Recommendations requiring a management decision on October 1, 2001              3
New recommendations issued during this period
  pending a management decision                                                 0
Previous recommendations for which a management
  decision was made                                                             0
Number of recommendations pending a management decision
  on March 31, 2002                                                             3

Corrective Actions

Prior recommendations requiring action on October 1, 2001                     109
New recommendations issued during this period                                  44
Recommendations for which corrective actions
  were completed from October 1, 2001 - March 31, 2002                        - 54
Recommendations pending final action on March 31, 2002                          99




                                        -15-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




                    OFFICE OF INVESTIGATIONS


The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
primary objective is to identify, investigate, and refer for prosecution and monetary
recovery action, cases of waste, fraud and abuse in RRB programs. Through its
investigations, OI also seeks to prevent and deter program fraud. In order to
maximize the effect of its resources, OI continues to pursue cooperative
investigative activities and coordination with other Inspectors General and law
enforcement agencies, which include the Social Security Administration-Office of
Inspector General, the Federal Bureau of Investigation (FBI), the U.S. Secret
Service, the Internal Revenue Service, and the Postal Inspection Service.

During this reporting period, OI received an anonymous hotline call from an irate
woman who, while leaving a message, made several threats against President
Bush. OI agents traced the call to an address in Washington, D.C., and referred
the matter to the U.S. Secret Service. Based on this referral, the woman was
located, arrested and placed in a mental facility by agents from the Secret
Service. The Secret Service later advised OI that the woman was of record with
that agency for previously making threats against individuals protected by that
agency.



.




                                        -16-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2001 - March 31, 2002




                                                                       10/01/01 -
INVESTIGATIVE ACCOMPLISHMENTS                          FY 2001         03/31/02

Convictions                                                      51            24

Civil Judgements                                                 53            24

Indictments/Informations                                         37            17

Investigative Recoveries                                $ 297,792       $ 82,558

Restitutions and Fines                                  $ 942,219       $ 285,119

Civil Damages and Penalties                             $ 761,637       $ 205,796

Potential Economic Loss Prevented (PELP)                $ 754,256                   0

Community Service Hours                                        580            408

Disciplinary/Administrative Action                               1                  0

Civil Complaints                                                 24                 3
Criminal Complaints                                               5                 2

Arrests                                                          2                  1

Subpoena Service:
 Inspector General                                               17             4
 Federal Grand Jury                                              32            18
 Trial                                                            0             9

Program Fraud Civil Remedies Act Referrals                       5                  0

U.S. Attorney Referrals                                        404            117




                                       -17-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2001 - March 31, 2002



INVESTIGATIVE CASES

During this semiannual period, OI opened 91 investigations and closed 120
cases. The major sources of case referrals are illustrated below.
                                                      RRB Computer Matches - 9%


    RRB Programs - 65%

                                                                OIG Developed - 13%




                                                                 Hotline/Informants - 11%



                                                           Federal/State Agencies - 2%



OI's current caseload totals 507 criminal matters, representing approximately $13
million in fraud against the RRB.
                                              Sickness - 25 cases
                                                  $104,000

      Unemployment - 150 cases                                       Railroad Employers -13 cases
         $623,000                                                             $3,271,000



                                                                       Retirement - 124 cases
                                                                            $4,958,000




       Disability - 141 cases                                    Spouse/Dependent - 20 cases
           $2,167,000                                                    $688,000
                                                         Representative Payee - 20 cases
                                                  Other - 14 cases
                                                     $1,135,000


                                           -18-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002



REPRESENTATIVE INVESTIGATIONS

                        Railroad Employer Fraud

OI investigates cases involving false reporting by railroad employers. Such cases
are often worked jointly with the Internal Revenue Service under the direction of
the Department of Justice Tax Division attorneys. These cases can involve
complex fraud schemes which result from collusion among railroad employers,
retired railroad workers and third party employers. These schemes have a
substantial impact on the agency’s trust funds because the retirees are receiving
benefits to which they are not entitled and, at the same time, the employers are
not submitting contributions to the trust funds as required.

By law, railroad employers are required to advise the agency of changes in their
operations, organization or ownership that would affect their status for coverage
under the Railroad Retirement and Railroad Unemployment Insurance Acts. The
OIG has found that, due to a minimal policing of employers by the agency, it is
very easy for employers to assign employees to affiliated business entities and
report them as being covered under the Federal Insurance Contributions Act.
Some employers have transferred employees to temporary employment agencies
or payroll servicing companies to carry out the fraud.

OI continues to review the results of audits conducted by the agency’s Audit and
Compliance Division to identify fraud matters related to railroad
employers. OI currently has 13 open cases involving allegations related to
railroad employers.




                                        -19-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




                   Retirement Benefit Investigations

RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
Treasury checks, or the illicit conversion of U.S. Treasury electronic fund transfers,
by someone other than the authorized RRB annuitant. During this reporting
period, OI obtained seven convictions and four civil judgements for retirement
fraud. Defendants received six months and nine days imprisonment, 16½ years
probation, nine months house arrest, and were ordered to pay $129,631 in
restitution, $9,534 in penalties and $30,796 in damages. The RRB will recover
$35,421 in overpayments as a result of OIG investigations.

Examples of recent retirement cases follow.

•         An RRB District Office referred a case involving a widow annuitant who
          had died ten years ago but whose RRB annuity benefit checks were
          being cashed by a relative. The subsequent OI investigation determined
          that the annuitant had died on July 11, 1990, but no notification of her
          death was sent to the RRB. From August 1990 to February 2001, her
          son received and negotiated 127 checks by forging his mother’s name,
          resulting in the theft of $103,583 in RRB administered retirement
          benefits. On February 26, 2002, the subject pleaded guilty to Title 18,
          U.S.C. §641, Theft of Government Funds. He was sentenced to five
          months imprisonment, five months of home confinement, and then will be
          placed on supervised release for three years. He was also ordered to
          make full restitution to the RRB.




                                         -20-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                     October 1, 2001 - March 31, 2002




•   A referral from the Social Security Administration (SSA) indicated that
    an RRB widow annuitant may be claiming benefits to which she was not
    entitled due to remarriage. An SSA representative had interviewed an
    applicant for retirement benefits who indicated his wife did not wish to
    apply for benefits because she was currently receiving RRB benefits.
    The wife’s first husband, an RRB annuitant, had died, but information of
    his death had not been provided to the RRB. The wife also had failed to
    notify the RRB of her remarriage.

    On February 14, 2002, the woman was convicted on one count of Title
    18, U.S.C. §641 Theft of Public Money. She was sentenced to five
    years probation and ordered to make restitution of $41,865.

•   Based upon a referral from the RRB’s Debt Recovery Division, OI
    initiated another investigation concerning a widowed annuitant who had
    reportedly died in 1998. The annuitant’s daughter had failed to notify the
    RRB of her mother’s death. Government funds totaling $8,420
    continued to be issued via U.S. Treasury checks that were negotiated by
    the woman’s daughter and niece.

    The women subsequently entered into Consent Judgements and agreed
    to make restitution to the government totaling $15,830. The RRB will
    receive the original fraudulent overpayment amount, and the Department
    of Justice will receive the remaining $7,410.




                                  -21-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




    Unemployment and Sickness Insurance Investigations

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
individuals claiming and receiving UI or SI benefits while working and receiving
wages from an employer, in violation of Federal law. The primary source of UI/SI
fraud cases remains state computer matching programs that compare RRB
beneficiaries with individuals for whom wages have been reported.

During this reporting period, OI obtained 15 convictions and 19 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, 16
months imprisonment, 28½ years probation, and two months house arrest. They
were ordered to pay $79,756 in restitution, $96,158 in damages, $10,000 in
fines, $35,708 in civil penalties and to perform 408 hours of community service.
The RRB will also be able to recover an additional $21,928 as a result of OI
investigations.

Based on information developed from the state wage matching programs, the
RRB’s Sickness and Unemployment Insurance Division referred the cases
described below to OI for followup investigation. In all the cases, the initial
allegations indicated that the subjects had collected unemployment insurance
benefits while working for private employers.




                                        -22-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                     October 1, 2001 - March 31, 2002




•   OI investigated an employee of a large grocery chain in Maryland and
    discovered that she had fraudulently collected UI benefits from June
    through December 1997. She failed to reveal this employment to the
    RRB, submitted 14 false claims to the RRB, and collected benefits
    totaling $5,491 for 125 days while she was employed. On March 4,
    2002, a Civil Judgement by Default was entered against the subject for
    a violation of Title 31, U.S.C. §3729(a), False Claims Act for $116,086,
    plus post judgement interest from the date of the judgement until paid in
    full.

•   OI investigation of another subject identified a construction worker who
    falsely collected UI benefits for 150 days while he was employed. He
    had previously been arrested and/or convicted of armed robbery,
    assault and narcotics possession. The subject has submitted 18 false
    claims, resulting in a theft of $5,790. A Civil Judgement by Default was
    also entered against this subject for violation of the False Claims Act for
    $17,370, plus post judgement interest from the date of the judgement
    until paid in full.

•   A third subject, an employee of a major delivery service, collected
    benefits for 153 days while employed. He submitted 33 false claims to
    the RRB, resulting in the theft of $6,148. He received a Default
    Judgement and was ordered to pay $16,920.




                                   -23-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2001 - March 31, 2002




                          Disability Investigations

The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more sophisticated
schemes. During this reporting period, OI obtained one civil judgement and one
criminal conviction for disability fraud. One individual was sentenced to three
years probation. Defendants in these cases were ordered to pay $23,868 in
restitution, and $33,600 in civil damages and penalties. An additional $16,063 in
overpayments will be recovered as a result of OI investigations concerning
disability fraud cases.

A description of a typical disability case follows.

•      Based upon a hotline complaint, OI opened an investigation of an annuitant
       who was allegedly operating a lumber sawmill business and collecting
       RRB administered disability benefits. Disability annuitants are restricted
       to earning not more than $400 monthly or a total of $4,999 per year. The
       investigation revealed that the annuitant had owned and operated an
       incorporated business since March 1992. He had falsified his disability
       application, failed to notify the RRB of his employment and did not report
       his earnings, as required. As a result, an overpayment was calculated at
       $43,838.

       On February 12, 2002, the annuitant pleaded guilty to one count of violating
       Title 18, U.S.C. §1001, False Statements. He was sentenced to six
       months of home confinement, placed on five years probation, fined $2,000
       and ordered to make restitution to the RRB for the total overpayment
       amount.


                                         -24-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2001 - March 31, 2002




     AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

OI continues to pursue prosecution of cases under the Department of Justice's
Affirmative Civil Enforcement Program. This program involves "fast track" civil
prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
3729-3733, The Civil False Claims Act. This statute allows the government to
recover up to triple damages as well as $5,000 to $10,000 for each false claim
submitted.

During this reporting period, a total of 16 civil judgements under the ACE program
were entered by Federal district courts which will result in the return of $123,608
to the government when the funds are collected.

The Department of Justice is frequently obtaining double damages through these
civil false claims prosecutions. The judgements obtained in these cases also
provide the agency with an efficient and effective basis to pursue their collection
activities.

The ACE Program continues to provide an efficient means to address fraud
against agency programs, particularly where the fraud losses are below the
financial guidelines for criminal prosecution. It also is an effective way to return
fraud losses to the RRB's trust funds and create a deterrent against future fraud.




                                         -25-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2001 - March 31, 2002




                                     HOTLINE CALLS



The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals who desire to
report suspected criminal activity, conflict of interest, mismanagement, and waste
of RRB funds.


                                                                           10/01/01 -
                                                                           03/31/02


 Total Contacts: (Telephone Calls and Letters)                                  671


 Referred to: RRB-OIG, Office of Investigations                                  29


 RRB Bureaus/Offices                                                            376


 Other Federal Agencies                                                          13


 RRB Medicare Carrier/Durable Medical Equipment
 Regional Carriers                                                                7


 Other (misdirected calls, follow up calls to agents , etc.)                    246




                                                -26-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2001 - March 31, 2002




LEGISLATIVE & REGULATORY REVIEW

The Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of
the agency and to make recommendations in the semiannual report concerning
the impact on the economy and efficiency of the agency’s administration of its
programs and on the prevention of fraud and abuse.

The OIG continued to monitor the progress of the Railroad Retirement and
Survivors’ Improvement Act. The legislation was signed into law on
December 21, 2001. A brief discussion of the impact of the law on the agency’s
investment activities can be found on page 6 of this report.




                                       -27-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2001 - March 31, 2002



APPENDIX A - OIG REPORTS ISSUED

P Review of the Railroad Retirement Board’s Internal Controls Related to
  Changes in the Full Retirement Age, December 10, 2001

P Review of the Railroad Retirement Board’s Contract with Consultative
  Examinations, Ltd. for Medical Consulting Services, January 4, 2002

P Management Information Report - Monitoring of Investment Committee Activity,
  January 28, 2002

P Review of Information Security at the Railroad Retirement Board,
  February 5, 2002

P Fiscal Year 2001 Financial Statement Audit, February 8, 2002

P Management Information Report - Weaknesses in RRB Controls for Protecting
  Social Security Numbers, February 13, 2002


P Inspection of the Railroad Retirement Board’s Quality Assurance Program for
  Initial Benefit Awards, February 14, 2002




                                       -28-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2001 - March 31, 2002



APPENDIX B

                INSPECTOR GENERAL ISSUED REPORTS
                      WITH QUESTIONED COSTS

                                                            Questioned      Unsupported
                                              Number          Costs            Costs


A . For which no management decision
had been made by October 1, 2001                   0             0              0


B. Which were issued from October 1, 2001
through March 31, 2002                             0             0              0


Subtotals (A+ B)                                   0            0               0


C. For which a management decision was
made from October 1, 2001 through
March 31, 2002                                     0             0              0


(I) dollar value of disallowed costs               0            0               0


(Ii) dollar value of costs not disallowed          0            0               0


D. For which no management decision had
been made by March 31, 2002                        0             0              0


Reports for which no management decision
was made within six months of issuance             0             0              0




                                            -29-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2001 - March 31, 2002




               INSPECTOR GENERAL ISSUED REPORTS
                  WITH RECOMMENDATIONS THAT
                   FUNDS BE PUT TO BETTER USE

                                                        Number              Dollar Value

A. For which no management decision had
been made by October 1, 2001                              1                  $ 520,000


B. Which were issued from October 1, 2001
through March 31, 2002                                    0


Subtotals (A + B)                                         1                  $ 520,000


C. For which a management decision was
made from October 1, 2001 through March 31,
2002                                                      0


(I) dollar value of recommendations that were
agreed to by management                                   0


(ii) dollar value of recommendations that were
not agreed to by management                               0


D. For which no management decision had
been made by March 31, 2002                               1                  $ 520,000


Reports for which no management decision
was made within six months of issuance                    1                  $ 520,000




                                                 -30-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2001 - March 31, 2002



APPENDIX C - REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES

The FY 1999 appropriations language for this office requires the reporting of
additional information concerning actual collections, offsets and funds put to better use
achieved as a result of Inspector General activities. Figures are to be provided for each
semiannual period and as a cumulative number.

Office of Audit

         Funds to be Put    Funds Agreed         Receivables                Recoveries
Report   To Better Use      by Management      Established       Waivers      To Date


99-03    $     50,850       $    50,850        $ 50,850         $ 50,490      $     360
99-14    $     83,000       $    83,000*         $ 34,423                         $ 30,584
99-16    $ 48,000,000       $ 48,000,000
99-17    $ 11,000,000       $ 11,000,000
00-16    $   235,000          $  235,000                                          $ 253,846**


* This figure includes monies owed to the agency and overpayments which must be refunded.
**This figure represents returned payments credited to debtor accounts.


Office of Investigations


Recoveries realized by the RRB resulting from court ordered restitution and civil damages


October 1, 1998 - March 31, 1999               $ 344,465
April 1, 1999 - September 30, 1999             $ 511,190
October 1, 1999 - March 31, 2000               $ 495,402
April 1, 2000 - September 30, 2000             $ 542,732
October 1, 2000 - March 31, 2001               $ 457,015
April 1, 2001 - September 30, 2001             $ 533,341
October 1, 2001 - March 31, 2002               $ 403,384




                                                 -31-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                  October 1, 2001 - March 31, 2002



APPENDIX D - RRB MANAGEMENT REPORTS*

                     MANAGEMENT REPORT ON FINAL ACTION
                     ON AUDITS WITH DISALLOWED COSTS FOR
                   THE SIX MONTH PERIOD ENDING MARCH 31, 2002

                                                                                   Disallowed
                                                          Number                     Costs

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                   0                          0


 B. Audit reports on which management
 decisions were made during the period.                     0                          0


 C. Total audit reports pending final action
 during the period. (A + B)                                 0                          0


 D. Audit reports on which final action was
 taken during the period.

 1. Recoveries

    (a) Collections                                         0                          0

    (b) Property                                            0                          0

    (c) Other                                               0                          0


 2. Write-offs                                              0                          0

 3. Total of 1 and 2                                        0                          0

 E. Audit reports needing final action at the               0                          0
 end of the period.

* The information contained in this section has been provided by RRB management.



                                                   -32-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2001 - March 31, 2002




          MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
        WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
          FOR THE SIX MONTH PERIOD ENDING MARCH 31, 2002

                                                                                 Funds to be put
                                                          Number                  to better use
 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                    3                   $ 59,007,145 *

 B. Audit reports on which management
 decisions were made during the period.                      1                   $   529,996 **


 C. Total audit reports pending final action
 during the period. (A + B)                                  4                   $ 59,537,141


 D. Audit reports on which final action was
 taken during the period.

 1. Value of recommendations implemented.                    0                          0

 2. Value of recommendations that
 management concluded should not or could
 not be implemented.                                         0                          0

 3. Total of 1 and 2.                                        0                          0

 E. Audit reports needing final action at the
 end of the period (C - D.3).                                4                   $ 59,537,141

* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange:
Status of Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of
Supplemental Annuities;” and $400,945 from Audit Report 00-12 ,”Review of Tier 1 Reductions for
Other Disability Benefits.” The last figure represents combined over- and underpayments from
individual case adjustments.
** Comprised of $529,996 from Audit Report 01-11, “Review of the Quality of the Debt Recognition and
Collection Process for Railroad Retirement Act Overpayments.” During the reporting period, one
account was adjusted by paying an individual $89,996. However, actions associated with
recommendations accounting for the remaining $440,000 remained open at the end of the reporting
period.


                                                   -33-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                  October 1, 2001 - March 31, 2002



        MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
        OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                      AS OF MARCH 31, 2002

                                                   Funds to
                                      Disallowed   be put to         Reason action has not
        Report               Date       Costs      better use           been completed

Review of Initial Claims   09/20/96     None          None      A new computer system,
Processing (96-15)                                              scheduled for development in
                                                                Fiscal Year (FY) 2002, will
                                                                measure processing time for
                                                                initial benefits. This should
                                                                address the remaining
                                                                recommendation.

Review of Quality          01/22/97     None          None      The remaining recommendation
Assurance Activities                                            will be addressed as the agency
(97-06)                                                         develops a long-term quality
                                                                assurance plan during FY 2002.

Review of Non-Priority     03/13/97     None          None      The Office of Programs hopes to
Correspondence                                                  finish evaluating options for
Handling (97-09)                                                correspondence tracking in FY
                                                                2002 in order to close the
                                                                remaining recommendation.

Review of Duplicate        07/31/97     None          None      Needed programming changes to
Postings of Railroad                                            suppress duplicate earnings
Compensation (97-19)                                            referrals are scheduled for
                                                                completion in FY 2002. This
                                                                should address the last open
                                                                recommendation.

Review of                  08/25/97     None          None      While system changes were
Overpayments SSA                                                made to automate non-death
Transfer Cases                                                  termination cases, preliminary
(97-22)                                                         tests revealed the need for added
                                                                programming. After the changes
                                                                are completed, some further
                                                                testing will be required.




                                               -34-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2001 - March 31, 2002



       MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
       OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                     AS OF MARCH 31, 2002

                                                   Funds to be
                                   Disallowed      put to better        Reason action has not
       Report             Date       Costs              use                been completed

Vested Dual Benefits   06/16/98      None              None        The agency will review the
Appropriations (98-15)                                             feasibility of benefit component
                                                                   accounting as part of its overall
                                                                   strategic planning process for
                                                                   information technology.

Review of Computer      02/12/99     None              None        The Bureau of Information
Problem and Change                                                 Services is implementing a
Management Process                                                 reorganization of the help desk
(99-05)                                                            approval in December 2001.
                                                                   This should address the
                                                                   remaining open
                                                                   recommendation.

Review of Railroad      09/21/99     None              None        The agency is making
Unemployment                                                       programming changes to
Insurance Act                                                      automate the reconciliation
Contributions (99-14)                                              process for unemployment
                                                                   insurance reports/payments.
                                                                   The first phase should be
                                                                   completed in FY 2002. Planning
                                                                   and design of the remaining
                                                                   work will occur at that time.

Financial Interchange: 09/28/99      None          $48,000,000     The agency provided additional
Status of Prior                                                    information to the Social Security
Recommendations for                                                Administration in December
Change (99-16)                                                     2001 in support of revising
                                                                   Financial Interchange
                                                                   calculations to reflect
                                                                   unrecovered overpayments.




                                                -35-
                      Railroad Retirement Board-Office of Inspector General
                               Semiannual Report to the Congress
                                 October 1, 2001 - March 31, 2002



        MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
        OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                      AS OF MARCH 31, 2002

                                                  Funds to be
                                     Disallowed   put to better       Reason action has not
         Report             Date       Costs      use                   been completed

Review of              09/30/99        None       $10,606,200     The agency has requested
Supplemental Annuities                                            additional information on
(99-17)                                                           private pensions from some
                                                                  railroad employers and is in the
                                                                  process of correcting identified
                                                                  cases to close the remaining
                                                                  recommendations.

Review of Internal        10/05/99     None           None        The agency purchased new
Controls Over Fixed                                               software to improve its fixed
Assets (00-01)                                                    asset tracking system and is in
                                                                  the process of installing and
                                                                  testing it.

Information Systems       06/28/00     None           None        The agency has implemented
Security (INFOSEC)                                                nine recommendations, with
Assessment Report                                                 six still open. The agency’s
                                                                  new information security officer,
                                                                  named in February 2002, will
                                                                  help address the remaining
                                                                  ones.

Review of Tier 1          08/04/00     None          $ 400,945    The agency completed
Reductions for Other                                              corrective action on the
Disability Benefits                                               remaining open
(00-12)                                                           recommendation on April 30,
                                                                  2002.

Review of the RRB’s       08/09/00     None           None        The agency completed a
Compliance with the                                               preliminary review of computer
Critical Infrastructure                                           security plans and is in the
Assurance Program                                                 process of updating security
(00-13)                                                           plans for all systems during FY
                                                                  2002.




                                              -36-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2001 - March 31, 2002



        MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
        OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                      AS OF MARCH 31, 2002

                                                    Funds to
                                    Disallowed      be put to         Reason action has not
        Report             Date       Costs          better             been completed
                                                      use

Review of the            08/11/00     None           None       While system changes were made
Processing of                                                   to improve recovery of
Automated                                                       representative payee
Receivables,                                                    overpayments, testing indicated a
Reclamations and                                                need for further programming.
Credits (ARRC) System                                           Once it is finished, added testing
Referrals (00-14)                                               will be needed.

Review of Information    09/06/00     None           None       Corrective action on the remaining
Technology Contracts                                            recommendation will be
(00-15)                                                         completed when the agency’s
                                                                wide-area network is fully installed
                                                                and operational.

Review of Internal       09/29/00     None           None       Final action on the three remaining
Control Over Financial                                          open recommendations is
Accounting for Debt                                             contingent on completion of
Recoveries (00-16)                                              programming changes of
                                                                automated systems and
                                                                associated development of new
                                                                procedures.

Review of Document       11/17/00     None           None       The agency completed corrective
Imaging - Railroad                                              action on 16 recommendations.
Unemployment                                                    The remaining one will be
Insurance Act                                                   addressed as the agency takes
Programs (01-01)                                                advantage of a new data storage
                                                                system and expands backup
                                                                capabilities to all local area
                                                                network servers.




                                             -37-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2001 - March 31, 2002



      MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
      OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                    AS OF MARCH 31, 2002


                                             Funds to
                                Disallowed   be put to         Reason action has not
      Report           Date       Costs       better             been completed
                                                use

Audit of the RRB’s   02/23/01     None          None     The agency completed corrective
FY2000 Financial                                         action on three recommendations.
Statements (01-03)                                       The Bureau of Information Services
                                                         is in the process of improving
                                                         documentation for resolving
                                                         reported mainframe problems to
                                                         address the remaining
                                                         recommendation.




                                         -38-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2001 - March 31, 2002



APPENDIX E - REPORTING REQUIREMENTS

Inspector General Requirements                                                               Page


Section 4(a)(2) - Review of Legislation and Regulations                                         27
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 4
Section 5(a)(2) - Recommendations With Respect to Significant Problems,
  Abuses, and Deficiencies                                                                       4
Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                      None
Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   17
Section 5(a)(5) - Instances Where Information Was Refused                                    None
Section 5(a)(6) - List of Audit Reports                                                         28
Section 5(a)(7) - Summary of Each Significant Report                                             4
Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                29
Section 5(a)(9) - Statistical Tables on Management Decisions on
  Recommendations That Funds Be Put to Better Use                                               30
Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
  For Which No Management Decision Has Been Made                                             None
Section 5(a)(11) - Description and Explanation for Any Significant
  Revised Management Decision                                                                None
Section 5(a)(12) - Information on Any Significant Management Decisions
  With Which the Inspector General Disagrees                                                 None


Management Requirements


Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         32
Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  33
Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          34




                                                -39-
               REPORT
  FRAUD, WASTE AND ABUSE




Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: RRB-OIG Hotline Officer
       844 North Rush Street
       Chicago, IL 60611-2092
